No. 20-7348

In The

Supreme Court of tfje Mntteb States?
Anthony Ybarra,
Petitioner,
v.
United States Of America,
Respondent.

PROOF OF SERVICE

I, Mallory M. Gagan, hereby certify that on May 20, 2021, the original and a
copy of the petitioner’s reply brief in the above-entitled case were deposited with
Federal Express in Bernalillo County, New Mexico, properly addressed to the Clerk
of the United States Supreme Court and within the time for filing said reply brief.
The reply brief was also served upon the following counsel of record for Respondent:
Elizabeth C. Prelogar
Acting Solicitor General of the United States
Room 5614
United States Department of Justice
950 Pennsylvania Ave. N.W.
Washington, D.C. 20530
Ms. C. Paige Messec
Assistant U.S. Attorney
Office of the U.S. Attorney
P.O. Box 607
Albuquerque, NM 87103

- '

Anthony Ybarra, Petitioner
Margaret A. Katze
Federal Public Defender
/s/Mallory M. Gagan
Mallory M. Gagan
Assistant Federal Public Defender
Counsel ofRecord
New Mexico Federal Public Defender
111 Lomas Blvd., NW, Suite 501
Albuquerque, New Mexico 87102
Phone: (505) 346-2489
Email: mallory_gagan@fd.org
Counsel for Petitioner

